Audit of USAID-Financed Democracy and
Governance Activities in Egypt


Audit Report No. 6-263-04-006-P

July 12, 2004




                   Cairo, Egypt
(This page intentionally left blank.)
July 12, 2004



MEMORANDUM

FOR:            Director, USAID/Egypt, Kenneth C. Ellis

FROM:           Acting Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:        Audit of USAID-Financed Democracy and Governance Activities
                in Egypt (Report No. 6-263-04-006-P)

This memorandum transmits our final report on the subject audit. We considered
your comments to the draft report and have included them in their entirety as
Appendix II.

The report contains two recommendations to improve the accuracy of
performance data in the Mission’s Annual Report and one recommendation to
correct inaccurate performance results from fiscal year 2002. Based on your
comments to the draft report, we consider management decisions to have been
made on all three recommendations and final action on Recommendation No. 1
and Recommendations No. 3. USAID/Egypt should coordinate final action on
Recommendation No. 2 with USAID’s Office of Management Planning and
Innovation (M/MPI).

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
(This page intentionally left blank.)




                                        2
Table of   Summary of Results                                          5
Contents
           Background                                                  6

           Audit Objectives                                            6

           Audit Findings                                              7

              What is the status of USAID- financed democracy and
              governance activities in Egypt?                          7


              Had USAID/Egypt’s democracy and governance activities
              progressed towards their intended results?               9


                  USAID/Egypt Needs To Strengthen Its Monitoring of
                  Reported Results                                     9

           Management Comments and Our Evaluation                     14

           Appendix I – Scope and Methodology                         15

           Appendix II – Management Comments                          19

           Appendix III – Fiscal Year 2002 Democracy and Governance
           Performance Indicators and Performance Results             20

           Appendix IV – Fiscal Year 2003 Democracy and Governance
           Performance Indicators and Performance Results             22




                                                                           3
(This page intentionally left blank.)




                                        4
Summary of   The Regional Inspector General/Cairo performed this audit to (1) determine the
Results      status of USAID- financed democracy and governance activities in Egypt and (2)
             determine if the activities had progressed towards their intended results. (See
             page 6.)

             In regard to the status of the activities, the following summarizes the status of the
             Mission’s four democracy and governance activities as of September 30, 2003:

             1. Administration of Justice Support Project - The Ministry of Justice had
                accepted USAID’s model court system, but the average case processing time
                for civil cases was 17.5 months versus a planned target of 15 months.
             2. Non-Governmental Organization Service Center Project - All 35 targeted
                non-governmental organizations receiving large grants had increased their
                organizational capacity by a targeted percentage, however, several milestones
                related to the establishment of the Service Center had not yet been met,
                including the legal registration of the Service Center as an Egyptian institution.
             3. Collaboration for Community-Level Services Project - The Project had
                relatively succeeded in one community and had achieved some successes in
                three other pilot communities. However, it had not succeeded in producing a
                model that could be replicated in other communities.
             4. Participating Agency Service Agreement with the Department of State - The
                U.S. Embassy in Cairo had issued $435,000 in grants during fiscal year 2003.
                Reasons for each grant varied. (See pages 7 and 8.)

             In regard to progress towards intended results, USAID/Egypt’s democracy and
             governance activities had mixed success. In fiscal year 2002, these activities did
             not meet four of five performance targets. In fiscal year 2003, the activities
             performed better by meeting or exceeding three of six performance targets. (See
             page 9.)

             USAID/Egypt reported accurate results, except for some reporting errors in the
             Mission’s Annual Report and performance management plan for fiscal year 2002.
             To address these errors, we recommended that the Mission (1) establish a
             procedure to confirm that results included in the Mission’s Annual Report have
             had data quality assessments at least once every three years, and (2) require
             strategic objective team leaders to attest that they have verified annual results
             reported in performance management plans. We also recommended that the
             Mission revise it performance management plan to correct the errors identified in
             this report. (See pages 9 through 13.)

             USAID/Egypt issued Mission Order No. 203-1 to address Recommendation No. 1
             and Recommendation No. 2 and revised the performance management plan to
             address Recommendation No. 3.




                                                                                                5
             Democracy programs impact all the main areas of the development agenda, such as
Background
             poverty alleviation, private-sector led growth, and the delivery of basic human
             services through governmental organizations. The objectives of USAID’s
             democracy activities include: 1) strengthe ning the rule of law and human rights, 2)
             promoting more genuine and competitive political processes, 3) increasing the
             development of a politically active civil society, and 4) encouraging more
             transparent and accountable government institutions.

             USAID/Egypt's democracy and governance activities have supported objectives 1,
             3, and 4 above. The activities included improvements in the administration of
             justice (objective 1), a stronger role for civil society (objective 3), and
             participatory models of service delivery to promote decentralization efforts
             (objective 4). USAID/Egypt implemented these activities through four projects
             during fiscal years 2002 and 2003:

             •       Administration of Justice Support
             •       Non-Governmental Organization Service Center
             •       Collaboration fo r Community-Level Services
             •       Interagency agreement with the Department of State

             As of September 30, 2003, the total value of the Mission’s active democracy and
             governance activities totaled $56.6 million with cumulative expenditures of $37.4
             million.



Audit        As part of our fiscal year 2003 audit plan, our audit aimed to answer the following
Objectives   two questions:
                 •   What is the status of USAID- financed democracy and governance activities
                     in Egypt?
                 •   Had USAID/Egypt’s democracy and governance activities progressed
                     towards their intended results?

             Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                               6
Audit Findings   What is the status of USAID-financed democracy and governance activities in
                 Egypt?

                 USAID/Egypt’s democracy and governance activities fall under Mission Strategic
                 Objective No. 21 titled, “Egyptian Initiatives in Governance and Participation
                 Strengthened.” In support of this strategic objective, the Mission aimed to
                 accomplish the following results: improve selected areas of administration of justice,
                 improve the capacity of civil society organizations to participate in development, and
                 increase stakeholder collaboration for community level services.

                 During fiscal years 2002 and 2003, USAID/Egypt had the following projects to
                 achieve the se results:

                 •      Administration of Justice Support: This $18.4 million project began in
                        1996 with a goal to modernize and automate commercial courts, and make
                        the judicial system more efficient and transparent.          Cumulative
                        expenditures as of September 30, 2003, were $17.6 million. The project is
                        scheduled to end in June 2004.

                        USAID/Egypt aimed to (1) have a model court system tested and accepted
                        for replication by the Ministry of Justice and (2) reduce the average number
                        of months from case filing to case completion at two pilot courts. As of
                        September 30, 2003, the Ministry had accepted the court system, but the
                        average case processing time was 17.5 months versus a planned 15 months.
                        Mission officials explained that the 15 month target was not met because
                        the project had encouraged judges to close older cases and reduce a
                        backlog of these cases. That is, the officials said that because the judges
                        had closed a large number of older cases during the year, the average case
                        processing time had not decreased to the extent that the Mission had
                        planned.

                 •      Non-Governmental Organization Service Center: This $30.6 million
                        project began in 2000 with a goal to assist non-governmental organizations
                        to have more of a voice in Egypt’s development decisions. Cumulative
                        expenditures as of September 30, 2003, were $15.5 million. The project is
                        scheduled to end in May 2005.

                        Through training, technical assistance and grants, USAID/Egypt focused
                        on improving the institutional capabilities of Egyptian non-governmental
                        organizations ; strengthening the networking and exchange of information
                        between the organizations, the government, and the private sector; and
                        leaving behind a sustainable non- governmental organization-support
                        facility. As of September 30, 2003, all 35 targeted non-governmental
                        organizations in receipt of large grants had increased their organizational



                                                                                                     7
        capacity1 by a targeted percentage, and 33 organizations (versus a planned
        21) receiving small grants had completed a designed activity in
        public-private dialogue or a specified organizational improvement.
        However, as of September 30, 2003, several milestones related to the
        establishment of the Service Center had not yet been met, including the
        legal registration of the Service Center as an Egyptian institution. Mission
        and project officials planned to continue their efforts to work with Egyptian
        governmental officials to meet this milestone.

•       Collaboration for Community-Level Services: This $5.2 million project
        began in 2000 with a goal to produce a model for capturing citizen
        participation to improve service delivery in their communities. Cumulative
        expenditures as of September 30, 2003, were $2.3 million. The project
        ended in February 2004.

        To foster citizen participation and improved governance, the Mission
        implemented a small-scale, experimental effort to work in four pilot
        communities. As of September 30, 2003, the project had succeeded in one
        community, Dumyat, where furniture makers were acting collectively to
        articulate their needs to the local governante, and had achieved some
        successes in the three other communities, where stakeholders from
        different groups had participated in meetings to address community needs.
        However, the project had not succeeded in producing a model that could be
        replicated in other communities. As a result, the Mission decided not to
        pursue the project’s second phase and planned to deobligate unused project
        funds of approximately $1.8 million.

•       An interagency agreement with the Department of State: This $2.4 million
        agreement with the Public Affairs Section of the U.S. Embassy in Cairo
        began in 1996 and supported public diplomacy.             Specifically, the
        agreement provided support to the Embassy in the performance of citizen
        education activities to promote social and economic development in Egypt.
        Cumulative expenditures as of September 30, 2003, were $2 million. The
        estimated completion date for the agreement is June 2004.

        As of September 30, 2003, the U.S. Embassy awarded 24 grants totaling
        $435,000. Specific purposes of the grants varied.

Appendix IV lists the Mission’s fiscal year 2003 performance indicators and results
for the above activities.




1
  As measured by improvements to the organization’s internal governance, general management,
financial management, and advocacy abilities.


                                                                                               8
Had USAID/Egypt’s democracy and governance activities progressed towards
their intended results?

USAID/Egypt’s democracy and governance activities had mixed success in
progressing towards their intended results as measured by the Mission’s six
primary performance indicators.

In fiscal year 2002, USAID/Egypt met 1 of 5 democracy-related performance
targets and fell short of 4 targets by more than 10 percent. 2 Hence, as shown in
Appendix III, the Mission’s democracy and governance activities did not achieve
their intended results that year.

In fiscal year 2003, USAID/Egypt’s democracy and governance activities
performed better. The Mission exceeded 1 of 6 performance targets by 57 percent,
met 2 targets, and fell short of 3 targets by more than 10 percent. Hence, as shown
in Appendix IV, having met or exceeded 3 of 6 performance targets, the Mission’s
activities had achieved one-half of their intended result s that year.

In addition to the above six indicators, the Mission measured success of its
democracy and governance activities, in part, based on the number of completed
effective actions in public-private dialogue, such as an awareness campaign.
During 2003, non-governmental organizations well surpassed their target by
completing 72 planned effective actions versus a target of 44.

In regard to the reporting of the above performance results, USAID/Egypt reported
accurate results, except for some reporting errors in the Mission’s Annual Report
and performance management plan for fiscal year 2002. These issues are
discussed below.

USAID/Egypt Needs To Strengthen Its
Monitoring of Reported Results

USAID policy requires that data quality assessments be performed at least every
three years on data to be reported externally on USAID’s performance. Contrary
to this policy, USAID/Egypt reported some data that had not been verified in its
2003 Annual Report. 3 Consequently, in some cases the Mission’s Annual Report
and performance management plan contained inaccurate information on the
Mission’s democracy and governance activities. The inaccurate reporting occurred
because (1) the Mission did not have controls to ensure that externally reported
data contained in the Mission’s Annual Report had received data quality
assessments, and (2) controls over results reported in performance management
plans were weak. These two issues are discussed below.



2
    A sixth indicator did not have a target for fiscal year 2002.
3
    The 2003 Annual Report contained the performance results from fiscal year 2002.


                                                                                      9
Controls Over Data Quality Assessments - USAID’s Automated Directives
System Chapter 203.3.5.2 states that data reported to USAID/Washington for
reporting externally on USAID’s performance must have had a data quality
assessment within the three years before submission. It also says that the purpose
of a data quality assessment is to ensure that the operating unit and strategic
objective team are aware of the strengths and weaknesses of the data being
reported and are aware of the extent to which the data can be trusted to influence
management decisions. Chapter 203.3.5.1 adds that a data quality assessment
involves applying five data quality standards to performance data: validity,
integrity, precision, reliability, and timeliness.

Contrary to the above requirements, USAID/Egypt had not ensured that data
quality assessements had been performed on results reported for the Mission’s
democracy and governance activities. Consequently, it reported the following
inaccurate fiscal year 2002 results:

•   The Ministry of Justice accepted the pilot court model for nationwide
    replication.

•   A 50 percent reduction in case processing time occurred                   in the
    USAID-supported pilot courts.

•   A total of 33 (versus a planned 21) effective advocacy actions/campaigns in
    public-private dialogue, such as awareness campaigns, conferences and
    petitions were carried out by large and small sub-grantees covering a wide
    range of areas such as women civil and legal rights, child labor, street children,
    and environmental awareness.

Regarding the Ministry of Justice’s acceptance of the pilot court model,
USAID/Egypt did not have evidence to support the Ministry of Justice’s
acceptance in fiscal year 2002. However, the Mission did have evidence of the
Ministry’s acceptance in fiscal year 2003.

Regarding the 50 percent reduction in case processing time, the methodology used
to calculate the 1997 baseline average case processing time of 22.4 months was not
comparable to the methodology used to calculate the average case processing time
in years 1998 through 2003. Using the 1998 average case processing time of 12.8
months as a more reliable baseline amount, there had been a 46 percent increase in
the average case processing time in fiscal year 2002. Table 1 below shows the
percentage change in average case processing time for years 2000 through 2002.




                                                                                   10
     Table 1: Percentage Change in Average Case Processing Time
                                                  Percentage
                            Average Case        Change from
              Year         Processing Time         Baseline
              1998
        (Revised Baseline)   12. 8 months            ----
              2000           11.4 months        11 % decrease
              2001           12.7 months        0.7 % decrease
              2002           18.7 months         46% increase

Regarding the reported total of 33 effective advocacy actions/campaigns,
USAID/Egypt had calculated the 33 effective actions by adding 7 actions
completed by small grantees and 26 actions completed by large grantees.
However, Non-Governmental Organization Service Center officials said that,
although the indicator’s performance monitoring plan said that the indicator was
supposed to count both large and small grantees, the Center had established
performance targets based only on effective actions planned for large grantees.
Thus, only the 26 effective actions completed by large grantees should have been
counted and reported against the planned target.

However, 10 of these 26 effective actions were unplanned actions (e.g., media
coverage/newspaper article of a completed effective action) that had occurred. By
including the 10 unplanned actions in its reported total, USAID/Egypt reported
that it had surpassed its target. However, it would have been more accurate to state
that although it had fallen short of its target (16 of 21 planned effective actions had
been completed), the shortfall was offset by 10 unplanned actions that had
occurred.

Data quality assessments had not been performed on the above fiscal year 2002
results because USAID/Egypt had not implemented controls to ensure that such
assessments had been done. Had data quality assessments been performed on the
above indicators, the errors likely would have been discovered and corrected.

Controls Over Performance Management Plans - Per Automated Directives
System Chapter 200.6, a performance management plan is a tool used by strategic
objective teams to plan and manage the process of assessing and reporting progress
towards achieving a strategic objective. If the plan includes inaccurate results,
strategic objective teams and other mission officials are at risk of making incorrect
conclusions on the success of an activity.

To illustrate, Table 2 below shows two errors contained in the democracy and
governance team’s performance management plan for fiscal year 2002:




                                                                                    11
               Table 2: Unmet FY 2002 Performance Indicators
                                           FY 2002 Result
                                          Per Performance     FY 2002
                                            Management         Result
          Performance Indicator                 Plan         Per Audit
 Strategic objective level indicator            Met          Not Met

 Milestones in the establishment and
 functioning of the Non-Governmental
 Organization Service Center (the Center):

 •   Milestone 5: Three-year plan for the             Met               Not Met
     Center’s organizational development
     and financing plan drafted.

In regards to the strategic objective level indicator, USAID/Egypt reported that
targets and expectations for the 2002 reporting period had been “met.” However,
as illustrated in Appendix III, 4 of 5 performance indicators for fiscal year 2002
had missed their targets by more than 10 percent. Hence, contrary to what the
Mission had reported, the Mission’s democracy and governance activities had not
met their targets.

USAID’s Annual Report Guidance says that to qualify for a “met,” a strategic
objective did not have to achieve all of its targets for the year. However, the
Guidance explains that an unbiased observer, looking at the target/achievement
records, would conclude that the strategic objective was making sufficient
progress.

In reaching the conclusion that its democracy and governance activities had met
targets and expectations, USAID/Egypt cited the 50 percent reduction in average
court case processing time, the Ministry of Justice’s acceptance of a model court
system, and the 33 effective actions (versus a planned 21) that had been completed
by civil society organizations. However, as mentioned previously in this report,
each of these fiscal year 2002 statements were incorrect.

In regards to Milestone 5, USAID/Egypt reported the milestone as having been
met, but the Mission’s technical assistance contractor reported in its
September 30, 2002 Semiannual Activity Report that it had not been met. Mission
officials said the mistake occurred because they had incorrectly transcribed the
results for Milestone 5 from the contractor’s report.

The inaccuracies in the performance management plan occurred because although
the cognizant technical officer, strategic objective team leader, and program office
officials had reviewed results contained in the plans for their reasonableness, they
did not perform a detailed review or verification of the reported results.
Consequently, the plan contained inaccuracies, which led Mission managers to



                                                                                  12
reach an incorrect conclusion on the success of their democracy and governance
activities in fiscal year 2002.


                          *      *       *      *       *

The reporting of unverified results in USAID/Egypt’s Annual Report and
performance management plans could have led managers at USAID/Washington,
as well as decision makers outside of USAID, to make improper conclusions and
programmatic decisions about the Mission’s democracy and governance program.
To help prevent future reporting errors, USAID/Egypt needs to strengthen its
monitoring of reported results to ensure that required data quality assessments have
been performed and that performance management plans contain accurate
performance information.

       Recommendation No. 1: We recommend that the Director,
       USAID/Egypt, establish a procedure to confirm that results
       included in the Mission’s Annual Report have had data quality
       assessments at least once every three years .

       Recommendation No. 2: We recommend that the Director,
       USAID/Egypt, require strategic objective team leaders to attest
       in writing that they have verified annual results reported in
       performance management plans.

       Recommendation No. 3: We recommend that the Director,
       USAID/Egypt, require the democracy and governance team to
       revise its performance monitoring plan to correct the errors
       contained in this audit report.




                                                                                 13
Management       USAID/Egypt issued Mission Order No. 203-1 to address Recommendation No. 1
Comments and     and Recommendation No. 2. USAID/Egypt also revised the Democracy and
Our Evaluation   Governance’s performance management plan to address Recommendation No. 3.
                 Appendix II contains the full text of USAID/Egypt’s comments.

                 Based on USAID/Egypt’s management comments, we consider that management
                 decisions have been made for all three recommendations. In addition, final actions
                 have been taken for Recommendation No. 1 and Recommendation No. 3. For
                 Recommendation No. 2, USAID/Egypt stated that Annual Report guidance will
                 include the requirement that Associate Directors and/or Division Chiefs of technical
                 offices attest in writing through a memo to the program office that the performance
                 annual data/results reported in their performance monitoring plan was verified by
                 their Strategic Objective Teams. When these actions have been completed, please
                 coordinate final action on Recommendation No. 2 with USAID’s Office of
                 Management Planning and Innovation (M/MPI).




                                                                                                    14
                                                                                        Appendix I




Scope and     Scope
Methodology
              We performed our audit in accordance with generally accepted government auditing
              standards and determined the status of USAID/Egypt’s democracy and governance
              activities as of September 30, 2003. The audit also determined whether the Mission’s
              democracy and governance activities had progressed towards their intended results in
              fiscal years 2002 and 2003.

              We performed our fieldwork at USAID/Egypt and at the offices of the Mission’s
              three implementing partners: American-Mideast Educatio nal and Training Services,
              Inc., Save the Children, and Development Associates in Cairo, Egypt. In addition,
              we performed fieldwork at the North Cairo Court in Cairo and at project sites in
              Dumyat and Nagada, Egypt. Fieldwork was performed from September 21, 2003, to
              April 13, 2004.

              The audit scope included assessing management controls over the reporting of
              performance results. Such controls included how implementing partners collected,
              verified, and reported performance data and how USAID/Egypt collected, verified,
              and reported those results in its Annual Report. It also included reviews of the
              Mission’s Annual Reports, performance management plans, and contractor
              performance reports, as well as interviews with USAID, implementing partners, and
              Government of Egypt officials. There were no prior audit findings affecting the
              Mission’s democracy and governance activities.

              In addition, the audit included tests on reported fiscal year 2002 and 2003 results for
              the six primary performance indicators that USAID/Egypt used for its democracy and
              governance activities. Our tests included reviewing USAID/Egypt’s Annual Reports
              and performance management plans and tracing reported data back to a variety of
              source documents. We also assessed the quality of reported data.

              Methodology

              At the beginning of the audit fieldwork, we interviewed the Mission’s democracy and
              governance team to gain an understanding of their activities and to determine which
              performance indicators were the most important or significant to the team. In
              collaboration with the officials, we then selected 5 of 6 democracy-related indicators
              at the intermediate result level to test.

              1. “Number of targeted civil society organizations (in receipt of large grants)
                 achieving a target percentage cha nge on the organizational capacity index.”

                 To test the reported number of targeted civil society organizations (in receipt of
                 large grants) achieving a target percentage change on the organizational capacity



                                                                                                  15
                                                                         Appendix I


   index, we used a random number generator to select 8 of 16 organizations (50
   percent) for fiscal year 2002. Because we found the reported results for fiscal
   year 2002 to be accurate, for fiscal year 2003 we reduced our testing to 25 percent
   and tested results for 9 of 35 organizations. During our testing we reviewed
   supporting organizational capacity surveys and verified that the claimed
   percentage changes were accurately computed.

2. “Number of targeted civil society organizations (in receipt of small grants)
   completing a designed activity. ”

   Mission officials said this was not one of the most significant performance
   indicators to them. Accordingly, we did not test reported results for this
   performance indicator.

3. “Milestones (1-9) in the establishment and function of the Non-Governmental
   Organization Service Center.

   We tested milestones 4, 5, and 6. To assess the accuracy of these reported
   milestones, we reviewed minutes from the Non-Governmental Organization
   Service Center’s Advisory Board, organizational plans, and job descriptions to
   determine whether each milestone had been met.

4. “Milestones and percentage of achievement in the establishment and
   implementation of mechanisms for stakeholders collaboration to improve public
   services at the community level. ”

   To assess the accuracy of reported milestones, we reviewed a mid-term
   evaluation of the Collaboration for Community Level Services Project and
   conducted interviews with project officials and beneficiaries in Dumyat and
   Nagada, Egypt.

5. “Selected court system tested and accepted for replication by the Ministry of
   Justice in all civil courts nationwide.”

   To determine whether the court system had been accepted, we reviewed the
   Project Grant Agreement for the follow on Administration of Justice II Project,
   which confirmed that the court system had been accepted.

6. “Average number of months from case filing to case completion in two pilot
   courts.”

   To assess the accuracy of reported results for the average case processing time for
   civil cases, we chose a 95 percent confidence level and assumed an error rate of 5
   percent. We then randomly selected 95 of 530 case processing times from fiscal
   year 2003 to test. We tested case processing times by reviewing cases at the




                                                                                   16
                                                                          Appendix I


    North Cairo Court. We did not test the reported average for fiscal year 2002
    because we had determined that the fiscal year 2003 average was correct.

In addition to the above intermediate level performance indicators, we also tested the
following indicator that the Mission used to report results at the strategic objective
level:

•   “Number of effective civil society actions in public-private dialogue.”

    To test the reported number of effective civil society actions, we used a random
    number generator to select 13 of 26 reported actions (50 percent) for fiscal year
    2002. Because we found the reported results for fiscal year 2002 to be accurate,
    for fiscal year 2003 we reduced our testing to 25 percent and tested 24 of 94
    reported actions. During our testing we reviewed supporting documents, such as
    newspaper articles, evidencing the reported actions and assessed whether the
    actions met the Non-Governmental Organization Service Center’s definition of an
    effective action.

To determine whether performance results were accurately reported, we used a five
percent accuracy threshold between reported results and the results attested by our
audit. To determine whether a performance indicator achieved its intended result, we
used a reportable condition threshold of 10 percent. That is, if the actual (not
reported) performance result was within 10 percent of its annual target, we concluded
that the performance indicator had met its target and that the project had achieved its
intended result for that year.




                                                                                    17
(This page intentionally left blank)




                                       18
                                                                                  Appendix II


Management
Comments
                                                                [JUNE 24, 2004]


MEMORANDUM


TO:          RIG/Cairo, David H. Pritchard

FROM:        D/DIR, Mary C. Ott [SIGNED]

SUBJECT: Audit of USAID/Egypt-Financed Democracy and Governance
         Activities in Egypt – Draft Audit Report


      Following is the Mission’s response to Recommendations No. 1, 2 and 3 under

the subject draft audit report.




Recommendation No. 1:

Recommendation No. 1: We recommend that the Director, USAID/Egypt, establish a
procedure to confirm that results included in the Mission’s Annual Report have had
data quality assessments at least once every three years.

USAID/Egypt Response to Recommendation No. 1:

USAID/Egypt Mission has recently issued the “Performance Management and
Evaluation” Mission Order No. 203-1 (Attachment 1). The Mission order was
cleared and approved by the Mission Director on June 7, 2004 and is effective as of
June 30, 2004. Sections IV “RESPONSIBILITY” and V “PROCEDURES”
specifies the responsibilities and procedures to confirm that results included in the
Annual Report have had data quality assessments at least once every three years.




                                                                                        19
                                                                                  Appendix II


In view of the above, the Mission believes that action has been made to address
Recommendation No. 1 and requests closure of Recommendation No. 1 upon
issuance of the final audit report.


Recommendation No. 2:

Recommendation No. 2: We recommend that the Director, USAID/Egypt, require
strategic objective team leaders to attest that they have verified annual results
reported in performance management plans.

USAID/Egypt Response to Recommendation No. 2:

In the above cited Mission Order No. 203-1, procedures are specified in section V
that the PMP describe quality assessment procedures to be used to verify annual
results reported. Annual Report guidance will include the requirement that Associate
Directors and/or Division Chiefs of technical offices attest in writing through a memo
to the program office that the performance annual data/results reported in their PMPs
was verified by their Strategic Objectives Teams. Those memos will be kept in the
Program Office as part of the official Annual Report files.

In view of the above, the Mission believes that action has been made to address
Recommendation No. 2 and requests closure of Recommendation No. 2 upon
issuance of the final audit report.

Recommendation No. 3:

Recommendation No. 3: We recommend that the Director, USAID/Egypt, require the
democracy and governance team to revise its performance management plans to
correct the errors reported in this report.




                                                                                    20
                                                                                   Appendix II


USAID/Egypt Response to Recommendation No. 3:

The Democracy and Governance team revised their performance management plans

(PMPs), correcting the errors that were identified and reported in the subject draft

audit report (Attachments 2 and 3).

Therefore, the Mission believes that action has been made addressing

Recommendation 3, and requests closure of recommendation No. 3 upon issuance of

the final audit report.




                                                                                       21
                                                                                                                Appendix III



                            Fiscal Year 2002 Democracy and Governance
                          Performance Indicators and Performance Results
                                                                                             Difference    Percentage
                                                                                                            Below or
                                                                                              (Planned –     Above
Performance Indicator                  Planned          Reported             Actual             Actual )     Target

1. Number of Targeted                     18                 16                 16                  -2        11%
Civil Society Organizations                                                                                  Below
(in receipt of large grants)                                                                                 Target
achieving a target
percentage change in
improvement on the
Organizational Capacity
Index.

2. Number of Targeted                     20                 19           Not Tested                -1        5%
Civil Society Organizations                                                                                  Below
(in receipt of small grants)                                                                                 Target
completing a designed
activity.

3. Milestones (1-9) in the           Milestones         Milestones        Milestones          Milestone       33%
establishment and                    4, 5, and 6        4, 5, and 6        4 and 6                5          Below
functioning of the Non-                                                                                      Target
Governmental Organization
Service Center.

4. Milestones in the                 Milestones         Milestones          Partially          Partially     50%
achievement and                      4, 5, and 6        4, 5, & 6             Met                Met        Below
implementation of                                                                                           Target4
mechanisms for
stakeholders collaboration
to improve public services
at the community le vel.

5. Selected court system                 N/A 5           Accepted            Not                    N/A       N/A
tested and accepted for                                                    Accepted
replication by Ministry of
Justice in all civil courts
nationwide.

6. Average number of                13.3 months        18.7 months        Not Tested        +5.4 months       41%
months from case filing to                                                                                   Below
case completion in two                                                                                       Target
pilot courts.
4
    Milestones 4, 5, and 6 had been met in two of the project’s four villages (i.e., 50 percent).
5
    Acceptance was planned for fiscal year 2003.


                                                                                                                      22
(This page intentionally left blank)




                                       23
                                                                                  Appendix IV


                   Fiscal Year 2003 Democracy and Governance
                 Performance Indicators and Performance Results

                                                                    Difference Percentage
                                                                                Below or
                                                                    (Planned –   Above
                                                                      Actual )
  Performance Indicator           Planned     Reported    Actual                 Target

1. Number of Targeted Civil          35          35        35           0          Met Target
Society Organizations (in
receipt of large grants)
achieving a target percentage
change in improvement on the
Organizational Capacity
Index.


2. Number of Targeted Civil          21          33        Not         +12            57%
Society Organizations (in                                 Tested                     Above
receipt of small grants)                                                             Target
completing a designed
activity.


3. Milestones (1-9) in the        Milestones    Not       Not       Milestones       100%
establishment and functioning     7, 8, and 9 Completed Completed   7, 8, and 9      Below
of the Non-Governmental                                                              Target
Organization Service Center.


4. Milestones in the              Milestone     Not       Not       Milestone        100%
achievement and                       7       Completed Completed       7            Below
implementation of                                                                    Target
mechanisms for stakeholders
collaboration to improve
public services at the
community level.


5. Selected court system          Accepted    Accepted   Accepted       0          Met Target
tested and accepted for
replication by Ministry of
Justice in all civil courts
nationwide.

6. Average number of months         15          17.5      17.5        -2.5         17% Below
from case filing to case           months      months    months      months          Target
completion in two pilot courts.




                                                                                              24
